No. 21-348

INTHE

$upreme <tourt of tbe Wniteb $tate~
JOHNSON & JOHNSON, et al.,

v.

Petitioners,

MISSISSIPPI, ex. rel. LYNN FITCH,
ATTORNEY GENERAL OF MISSISSIPPI

Respondent.
On Petition for a Writ of Certiorari to the
Mississippi Supreme Court

BRIEF FOR THE PHARMACEUTICAL RESEARCH
AND MANUFACTURERS OF AMERICA AS AMICUS
CURIAE IN SUPPORT OF CERTIORARI

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.l(h), I certify that the document contains
4,408 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.l(d).
I declare under penalty of perjury that the foregoing is true and correct.

Executed on October 1, 2021.

Wilson-Epes Printing Co., Inc.

